Case: 20-20166

Document: 00515623132

Page: 1

Date Filed: 11/02/2020

fHntfeb States Court of appeals!
for tfje Jfiftlj Circuit
No. 20-20166

Alexander Olivieri,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-4471

ORDER:
Alexander Olivieri, Texas prisoner # 1801330, moves for a certificate
of appealability (COA) to appeal the dismissal of his 28 U.S.C. § 2254
petition challenging his conviction and sentence for murder. In support of
his motion for a COA, Olivieri contends that the district court erred by
(1) dismissing two of his ineffective assistance of counsel claims as
procedurally defaulted, in violation of Martinez v. Ryan and Trevino v. Thaler,
(2) giving undue weight to the state courts’ findings on the ineffective
assistance of counsel claims it rejected on the merits; (3) failing to consider
the effect of his trial counsel’s errors in assessing his evidentiary insufficiency

Case: 20-20166

Document: 00515623132

Page: 2

Date Filed: 11/02/2020

No. 20-20166

claim; and (4) denying his constitutional claims without conducting an
evidentiary hearing.
In order to obtain a COA to appeal the denial of his § 2254 petition,
Olivieri must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). With respect to the claims that the district
court dismissed on procedural grounds, he must show “at least, that jurists
of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000). With respect to the claims that
the district court denied on the merits, Olivieri must show that “reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong. ” Id.
Olivieri fails to make the requisite showing. Accordingly, the motion
for a COA is DENIED.
/s/ Edith Brown Clement
Edith Brown Clement
United States Circuit Judge

2

Case: 20-

12/08/2020

for the Iftfth Circuit
No. 20-20166

Alexander Olivieri
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-4471

ON MOTION FOR RECONSIDERATION
AND REHEARING EN BANC
Before Clement, Elrod, and Haynes, Circuit Judges.
Per Curiam:
The Motion for Reconsideration is DENIED and no member of this
panel nor judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (Fed. R. App. P. and 5th Cir. R.
35) the Petition for Rehearing En Banc is also DENIED.

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ALEXANDER OLIVIERI,
Petitioner,
v.
LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§

February 27, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. H-18-4471

FINAL JUDGMENT
For the reasons stated in this Court’s Memorandum Opinion and Order of even
date, this civil action is DISMISSED WITH PREJUDICE.
This is a FINAL JUDGMENT.
SIGNED at Houston, Texas on this the x?(Zd)tyof February, 2020.

CLl

KEITH-F. ELLISON
UNITED STATES DISTRICT JUDGE

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ALEXANDER OLIVIERI,
Petitioner,
v.

Respondent.

David J. Bradley, Clerk

§
§
§
§

§

LORIE DAVIS,

February 27, 2020

CIVIL ACTION NO. H-18-4471

§
§
§
§

MEMORANDUM OPINION AND ORDER
Petitioner, a state inmate proceeding pro se, filed this section 2254 habeas case
challenging his conviction and sixty-year sentence for murder.

Respondent filed a

motion for summary judgment (Docket Entry No. 28), to which petitioner filed a
response (Docket Entry No. 34).
Having considered the motion, the response, the pleadings, the record, and the
applicable law, the Court GRANTS the motion for summary judgment and DISMISSES
this lawsuit for the reasons shown below.
I. BACKGROUND AND CLAIMS
A jury found petitioner guilty of murder in Harris County, Texas, and assessed
punishment at sixty years’ imprisonment in August 2012. The conviction was affirmed
on appeal in an unpublished opinion, and discretionary review was refused in June 2014.
State v. Olivieri, No. 01-12-00722-CR, 2014 WL 700778 (Tex. App. - Houston [1st
Dist.] 2014, pet. refd). The Texas Court of Criminal Appeals denied petitioner’s first

application for state habeas relief on August 22, 2018, and dismissed his second
application on April 17, 2019, as an abuse of the writ.
Petitioner presents the following grounds for habeas relief in this petition:
The evidence was insufficient to corroborate the accomplice witness
testimony of Alan Perez.
2.

He was denied his Miranda warnings during a pretrial interview.

3.

Trial counsel was ineffective in
(a)
(b)

failing to undertake proper pretrial investigation;

4£9pfirfailing to call defense
witnesses;
4

r:

4.

(c)

failing to conduct proper cross-examination;

(d)

making an improper comment during cross-examination of
Perez;

(e)

failing to object to the State’s improper jury argument; and

(0

failing to suppress petitioner’s pretrial statement due to lack
of Miranda warnings.

0m

Appellate counsel was ineffective in failing to raise viable claims on
appeal.

Respondent argues that these grounds are unexhausted, procedurally defaulted,
and/or without merit and should be summarily dismissed.

‘The Court stayed this federal habeas case pending disposition of the second application for
state habeas relief.
2

II. FACTUAL BACKGROUND
The intermediate state court of appeals set forth the following statement of facts
in its opinion affirming petitioner’s conviction:
On April 3, 2011, the body of seventeen-year-old Bridged Frisbie was
discovered by a group of children in the woods behind a housing
development in Katy, Texas. Neighbors reported hearing a gunshot early
that morning (around 2:45 a.m.), and reported to police that there had
recently been a drive-by shooting in the area. The medical examiner
testified that Bridged had been shot in the back of the head at close range.
Early in the investigation, Investigator James Cassidy learned that Alan
Perez had come forward with information about the case. On the evening
of April 5, 2011, Perez told his mother that he had gone with appellant to
help scare, or “rough up” Bridged, but that appellant had shot her without
warning. Perez’s family hired an attorney who negotiated an immunity
agreement for Perez in exchange for his statement and testimony.
According to the testimony of several witnesses, including Perez, appellant
was upset with Bridged because she would not keep quiet about a drive-by
shooting she participated in with appellant.
A.

Perez’s testimony

Perez and appellant met in high school. They joined the National Guard
together, but when appellant returned from basic training, he started
attending a different school. According to Perez, Bridged was one of the
new friends appellant made at his new school.
Perez testified that Bridged had been bragging about participating in a
drive-by shooting with a friend, and that appellant had later told Perez that
he was the shooter. Specifically, appellant told Perez that Bridged “drove
and he shot at her ex-boyfriend’s house with his Yugo semiautomatic
rifle.”
Perez testified that, on the evening of April 2, 2011, appellant asked him
for a favor. Appellant explained that he wanted to “rough up” Bridged for
telling friends about the [Larsen] drive-by, and he wanted Perez there as
backup. Appellant instructed Perez to “get his gear” and bring a weapon.
3

Perez brought a .380 pistol and wore his green military uniform, mask, and
gloves. Appellant wore his 9mm Beretta pistol in a shoulder holster under
his jacket.
According to Perez, they went to appellant’s house after midnight.
Appellant then called Bridgett and asked her to ride with him to pick up
her boyfriend, Zach Richards, from the bus station. Bridgett declined,
saying that she was busy. Appellant decided to go to Bridgett’s house, and
told Perez to hide under a blanket in the back of his Suburban. If appellant
was successful in luring Bridgett into the vehicle, appellant instructed
Perez to get out and follow appellant and Bridgett at a distance when they
reached their destination.
Bridgett was leaving on her four-wheeler to go meet friends when they got
to her house, so they left. They set out again to find her a little later and
found her pushing her four-wheeler because it had run out of gas.
Appellant asked her to help him “dig up a cache of some random thing.”
She initially said “no,” but eventually he talked her into going with him.
She put her four-wheeler in the garage and climbed into the passenger seat
of appellant’s Suburban.
Perez was still hiding in the back of the vehicle under blankets. Appellant
drove to the same neighborhood where he and Bridgett had done the
drive-by shooting. Appellant and Bridgett got out of the vehicle, and Perez
waited a minute and then got out and followed them. Perez saw appellant
carrying a shovel and kind of leading Bridgett with a flashlight. Appellant
pointed out a spot and asked Bridgett to start digging. As she bent over to
dig, Perez saw appellant reach into his jacket, pull out his gun, put it to the
back of Bridgett’s neck, and fire.
Perez testified that he was shocked because he “thought [appellant] might
threaten her, might poke her with the gun, but he had just shot her.”
Appellant ran towards Perez, and Perez “cursed at him for a bit.”
Appellant told Perez to shut up and run towards the car. Appellant
returned to Bridgett’s body to retrieve his shovel, flashlight, and Bridgett’s
cell phone. They drove to a “water tunnel” near Perez’s house where
Perez, and then appellant, tried to destroy Bridgett’s phone by banging it
with the shovel. Appellant hid the phone in the water tunnel, and they
returned to appellant’s house. They took everything out of the Suburban
and left it in appellant’s room.

4

Appellant and Perez then went about 4:00 a.m. to pick up Richards at the
bus station. Appellant offered to let Richards stay the night at his house,
so they went back to appellant’s house and all went to sleep. They did not
say anything to Richards about the murder, but appellant told Perez that
they should be each other’s alibi, and that Perez should tell the police that
he “had stayed at [appellant’s] house, hung out, watched movies and then
went to pick up” Richards.
A couple of days later, appellant’s mom picked up both Perez and
appellant and took them back to appellant’s house. Appellant’s mom had
heard about Bridgett’s murder and asked them numerous questions. When
they got the opportunity to be alone, appellant told Perez that he was going
to get rid of his Beretta and to stick to their alibi story.
Perez went home that night and told his parents what had happened. Perez
turned over his gun and the clothes he wore the night of the murder to
police. He also led police to Bridgett’s destroyed phone.
Perez identified a picture of appellant’s Beretta at trial. When a September
2010 Youtube video of appellant shooting at a gun range entitled “Me and
My Beretta 9 Millimeter” was played for the jury, Perez testified that he
had filmed the video for appellant on appellant’s cell phone. Perez
testified that the gun in the video was the same one that appellant used to
shoot Bridgett.
B.

Additional State’s Evidence
1.

Zach Richards’s testimony

Bridget’s boyfriend, Richards, testified that in March of 2011 appellant
stated that he was “going to deal with something,” grabbed his AK-47, and
left with Bridgett in Bridgett’s car. Appellant told Richards later that he
had shot at Bridgett’s ex-boyfriend’s house from Bridgett’s car while
Bridgett drove past. Appellant told Richards that he participated in the
drive by “to do a favor for” Bridgett and just because “he could do it.”
Richards testified that Bridgett kept bragging about the shooting and that
appellant angrily confronted her and told her to stop telling people.
On April 3, 2011, appellant had agreed to bring Bridgett to the Houston
bus station to pick up Richards about 1:00 a.m. When appellant did not
show up, Richards got a ride to a Denny’s and finally reached appellant by
5

phone about 2:30 or 3:00 a.m. Appellant told him that he was at home, but
would come pick him up. Appellant finally arrived several hours late and
Perez was with him. When Richards asked about Bridgett, appellant told
him that he tried to get in contact with her and went by her house, but that
he could not find her.
After getting some sleep at appellant’s house, Richards walked to
Bridgetf s house. Her dad answered the door and said that Bridgett had
been out all night and that he did not know where she was. Richards tried
to locate her through friends over the next couple of days until he heard the
news that her body had been found.
Richards testified that he had been to the woods where Bridgett was shot
with both appellant and Bridgett, so appellant was familiar with the area.
Appellant had also taken Richards to the water tunnels where Bridget’s
phone was found so they could shoot appellant’s AK-47. Finally,
Richards testified that it was common for appellant to have a gun with him.
2.

Robert Frisbie

Robert Frisbie, Bridgett’s father, testified that he last saw his daughter on
April 2, 2011. On that day, he bought her a new rave outfit—blue-green
faux-fur leggings, skirt and top. Appellant came by their house after they
returned home from shopping, and Frisbie saw him having a tense
conversation with Bridgett at the back door. Bridgett did not leave with
appellant at that time.
Sometime after appellant left, another of Bridgett’s friends, Kendall Suto,
came over for dinner and stayed for the evening. Frisbie drove Bridgett
and Kendall to a rave party, but it was closed and they eventually returned
home a little after 10:00 p.m. Kendall’s ride was not supposed to pick him
up until midnight, so Bridgett and Kendall settled in to watch a movie.
Bridgett was still wearing her new rave outfit when Frisbie went to bed and
set his alarm for midnight. He called downstairs when he woke up, but
Bridgett said that Kendall’s ride had not arrived yet. Frisbie told Bridgett
to wake him when Kendall left so that he could lock up the house. When
Frisbie awoke again about 3:00 am, he found the back door and the garage
door open. He locked up so that Bridgett could not sneak back in without
his knowledge. Then he realized that his cell phone was missing. He had
taken away Bridgett’s phone recently, so he assumed that she took his
when she went out.
6

Frisbie called his cell phone repeatedly and looked online to track the
phone’s GPS location. After he was unable to reach her or ascertain the
location of the phone, he gave up and decided to wait for her to return. He
was unable to locate her the following day, despite calling several of her
friends. Later the evening of April 3, he read online about a body being
found nearby, and he called police and discovered it was Bridgett.
3.

Physical Evidence

Appellant was arrested, and Samuel Olivieri, appellant’s father, gave
consent for the police to search their house and appellant’s Suburban.
Neither the AK-47 nor the Beretta were found. But the police did recover
an owner’s manual for a Beretta 9 millimeter.
In appellant’s Suburban, police recovered a blanket, a shovel, and rifle and
shotgun shell casings, as well as trace evidence samples—including
fibers—from the passenger’s seat and floor board. Ballistics testing
revealed that the shell casing from the Suburban matched the shell casing
recovered from the drive-by shooting at Larsen’s house. Fibers lifted from
the passenger seat of the car matched Bridgett’s new rave faux fur outfit
that she was wearing when her father last saw her on the night of April 2.
4.

Officer J. Cassidy’s Investigation

Officer Cassidy testified that Bridgett was still wearing the new faux fur
outfit when her body was discovered, and that there was a 9 millimeter
casing found near her body. He interviewed appellant early on in his
investigation, before appellant was considered a suspect. The tape of that
interview was played for the jury. In that statement, appellant said that he
went by Bridgett’s house about 5:00 p.m. on April 2. He said that he and
Perez came back later that night to pick her up on the way to the bus
station to get Richards, but that she was not waiting outside so he left
without ever seeing her. Appellant also denied having any knowledge
about handguns.
C.

Defendant’s Evidence

Appellant’s father, Samuel Olivieri testified that he had previously owned
a 9mm Beretta, but that he sold it in 2003. He testified that, when he went
to bed about 10:00 or 10:30 on April 2, appellant and Perez were there

7

playing a video game. When he woke up the next morning, Richards was
there too, asleep on an air mattress.
Appellant’s mother, Angelica Olivieri, testified that Perez was over at their
house the evening of April 2 playing video games with appellant. Around
10:30, Perez asked her if he could spend the night and she told him he
could sleep on the couch. She testified that appellant then went to bed in
his room about 11:30 p.m., and that his door squeaked so loudly that she
would always hear if he opened or closed his bedroom door. At about
12:45 a.m., she got up to get a drink of water and noticed that Perez was
gone from the couch. She got up again at 2:10 a.m. and looked in on her
mom, her daughter, and appellant. She testified that appellant was asleep
at that time. A little after 3:00 a.m., she heard appellant get up and he
came and told her that he was going to pick up Richards. Perez was with
him at that point. When she got up again, she found appellant, Perez, and
Richards all asleep.
Olivieri, at * 1-4. The jury found petitioner guilty of murder and assessed punishment at
sixty years’ confinement.
III. THE APPLICABLE LEGAL STANDARDS
A.

Habeas Review

This petition is governed by the applicable provisions of the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA). 28 U .S.C. § 2254. Under the AEDPA,
federal habeas relief cannot be granted on legal issues adjudicated on the merits in state
court unless the state adjudication was contrary to clearly established federal law as
determined by the Supreme Court, or involved an unreasonable application of clearly
established federal law as determined by the Supreme Court. Harrington v. Richter, 562
U.S. 86, 98-99 (2011); Williams v. Taylor, 529 U.S. 362, 404-05 (2000); 28 U.S.C. §§
2254(d)(1), (2). A state court decision is contrary to federal precedent if it applies a rule

8

that contradicts the governing law set forth by the Supreme Court, or if it confronts a set
of facts that are materially indistinguishable from such a decision and arrives at a result
different from the Supreme Court’s precedent. Early v. Packer, 537 U.S. 3, 7-8 (2002).
A state court unreasonably applies Supreme Court precedent if it unreasonably
applies the correct legal rule to the facts of a particular case, or unreasonably extends a
legal principle from Supreme Court precedent to a new context where it should not
apply, or unreasonably refuses to extend that principle to a new context where it should
apply. Williams, 529 U.S. at 409. In deciding whether a state court’s application was
unreasonable, this Court considers whether the application was objectively unreasonable.
Id. at 411. “It bears repeating that even a strong case for relief does not mean the state
court’s contrary conclusion was unreasonable.” Richter, 562 U.S. at 102. As stated by
the Supreme Court in Richter,
If this standard is difficult to meet, that is because it was meant to be. As
amended by AEDPA, § 2254(d) stops short of imposing a complete bar on
federal court relitigation of claims already rejected in state proceedings. It
preserves authority to issue the writ in cases where there is no possibility
fairminded jurists could disagree that the state court’s decision conflicts
with this Court’s precedents. It goes no farther. Section 2254(d) reflects
the view that habeas corpus is a ‘guard against extreme malfunctions in the
state criminal justice systems,’ not a substitute for ordinary error correction
through appeal.
Id., at 102-103 (emphasis added; internal citations omitted).
The AEDPA affords deference to a state court’s resolution of factual issues.
Under 28 U.S.C. § 2254(d)(2), a decision adjudicated on the merits in a state court and
based on a factual determination will not be overturned on factual grounds unless it is
9

objectively unreasonable in light of the evidence presented in the state court proceeding.
Miller-El v. Cockrell, 537 U.S. 322, 343 (2003). A federal habeas court must presume
the underlying factual determination of the state court to be correct, unless the petitioner
rebuts the presumption of correctness by clear and convincing evidence. 28 U.S.G. §
2254(e)(1); see also Miller-El, 537 U.S. at 330-31. This presumption of correctness
extends not only to express factual findings, but also to implicit or unarticulated findings
which are necessary to the state court’s conclusions of mixed law and fact. Murphy v.
Davis, 901 F.3d 578, 597 (5th Cir. 2018).
The state trial court on collateral review in petitioner’s case made express
findings of fact and conclusions of law. However, as a general conclusion of law, the
state trial court determined that:
The applicant fails to meet his burden and fails to state facts for which
relief can be granted in habeas corpus throughout his application. To
prevail upon a post-conviction writ of habeas corpus, the applicant bears
the burden of proving, by a preponderance of the evidence, the facts that
would entitle him to relief. Conclusory allegations are not enough to
warrant habeas relief. Even if sworn to, the allegations are insufficient to
overcome the State’s denials.
(Docket Entry No. 29-30, pp. 135-136, case citations omitted).
B.

Summary Judgment

In deciding a motion for summary judgment, the district court must determine
whether the pleadings, discovery materials, and the summary judgment evidence show
that there is no genuine issue as to any material fact and that the moving party is entitled
to judgment as a matter of law. Fed. R. Civ. P. 56(c). Once the movant presents a
10

properly supported motion for summary judgment, the burden shifts to the nonmovant to
show with significant probative evidence the existence of a genuine issue of material
fact. Hamilton v. Segue Software, Inc., 232 F.3d 473, All (5th Cir. 2000).
While summary judgment rules apply with equal force in a section 2254
proceeding, the rules only apply to the extent that they do not conflict with the federal
rules governing habeas proceedings. Therefore, section 2254(e)(1), which mandates that
a state court’s findings are to be presumed correct, overrides the summary judgment rule
that all disputed facts must be construed in the light most favorable to the nonmovant.
Accordingly, unless a petitioner can rebut the presumption of correctness of a state
court’s factual findings by clear and convincing evidence, the state court’s findings must
be accepted as correct by the federal habeas court. Smith v. Cockrell, 311 F.3d 661, 668
(5th Cir. 2002), overruled on other grounds by Tennard v. Dretke, 542 U.S. 274 (2004).
IV. ACCOMPLICE WITNESS TESTIMONY
Petitioner argues that the State violated his due process rights by presenting
insufficient evidence to corroborate the testimony of Alan Perez. Petitioner contends
that Perez was an accomplice as a matter of law under state law, and that the State failed
to present independent corroborating evidence to support Perez’s testimony.
Petitioner’s argument raises no cognizable federal habeas claim. The accomplice
witness rule arises under Texas state law, not federal law. See Tex. Code Crim. Proc.
art. 38.14 (“A conviction cannot be had upon the testimony of an accomplice unless
corroborated by other evidence tending to connect the defendant with the offense
11

committed; and the corroboration is not sufficient if it merely shows the commission of
the offense.”)- The federal Constitution imposes no requirement that the testimony of an
accomplice witness be corroborated by independent evidence. The prosecution’s failure
to satisfy the state law accomplice witness sufficiency rule, or a state court’s failure to
enforce that rule, are not a basis for federal habeas relief. Brown v. Collins, 937 F.2d
175, 182 n. 12 (5th Cir. 1991).
Even assuming an issue of federal constitutional dimension were raised, the
intermediate state court of appeals rejected this claim on state law grounds on direct
appeal. The court determined that even if Perez were an accomplice as a matter of law,
there was sufficient independent evidence corroborating his testimony against petitioner.
Olivieri, at *5-8.
Moreover, in rejecting this claim on collateral review, the state trial court made
the following relevant findings of fact:
7.

The Court finds that the applicant’s allegation that there was “no
evidence” is a sufficiency claim, which is not cognizable in habeas.

8.

The Court finds that the Court of Appeals summarized the
non-accomplice evidence in its opinion, finding that it was
sufficient to render harmless any alleged error by the trial court’s
refusal to instruct the jury that the State’s witness Alan Perez was
an accomplice as a matter of law.

(Docket Entry No. 29-30, p. 131, record citation omitted.) The trial court also made the
following relevant conclusions of law:

12

3.

An allegation that was rejected on direct appeal is not cognizable on
habeas corpus.

4.

The applicant’s attempts to challenge the sufficiency of the
evidence are not cognizable [on habeas].

Id., p. 136, case citations omitted.
Thus, petitioner’s claim was rejected on both direct appeal and state collateral
review under state law grounds, not federal grounds, and no cognizable claim for federal
habeas relief is raised. Petitioner fails to show that the state court’s determination was
contrary to, or involved an unreasonable application of, federal law or was an
unreasonable determination of the facts based on the evidence in the record. Respondent
is entitled to summary judgment dismissal of petitioner’s claim.
V. LACK OF MIRANDA WARNINGS
According to petitioner, the State violated his Fifth Amendment protection against
self-incrimination by not reading him his Miranda rights before interviewing him.
Petitioner claims in this proceeding that he was “in custody” at the time of the interview
and was questioned without benefit of Miranda warnings.
During the guilt-innocence phase of trial in the instant case, Deputy James
Cassidy, a deputy with the Homicide Unit of the Harris County Sheriffs Office,
testified to his investigation of the case and the circumstances surrounding his interview
of petitioner. (Docket Entry No. 29-13, pp. 27-69.) As to the latter event, Cassidy
testified under questioning by the prosecution as follows:

13

Q.

And when you first saw Alex Olivieri [at the complainant’s high
school], did you have any idea that he would have been involved in
the death?

A.

No. The only information we were provided was that he had given
another of her boyfriends a ride and that he knew her. But we were
initially provided no information that he was a suspect or anything
to that extent.

Q.

So at the time you met him, he was just a potential witness or
somebody that you were trying to just question and interview like
everybody else?

A.

Sure. In our job we try to get a feel for people, try to learn who their
associates are, try to get a vibe as to what they might know and who
they are. And that was our purpose of interviewing him at that
point. We had no knowledge if he was a suspect yet.

(Docket Entry No. 29-13, pp. 39-40.) Cassidy further testified that he audiotaped his
interview with petitioner, as he did with almost all of the individuals he interviewed, and
that the interview took place in a private room at petitioner’s high school. Id., pp. 41-42.
Cassidy stated that, even after completion of the interview, petitioner was not considered
a suspect in the complainant’s death. Id., p. 48. The state court record also shows that,
in raising an objection to the admissibility of the audiotape at trial, trial counsel
acknowledged that petitioner had not been in custody during the interview. Id., p. 43.
Petitioner did not raise this issue on direct appeal. In rejecting his Miranda claim
on state collateral review, the state trial court made the following relevant findings of
fact:
5.

The Court finds that the applicant made a voluntary, non-custodial
statement to the police.

14

6.

The Court finds that the applicant’s allegation that his statement
was “illegally used” is a record claim, which is not cognizable in
habeas.

(Docket Entry No. 29-30, p. 131, record citations omitted.) The state trial court also
made a conclusion of law that petitioner’s record claims should not be considered in
habeas because record claims should be raised on appeal. Id., p. 135. Thus, the state
trial court rejected petitioner’s claim on both procedural and substantive grounds.
Generally, a federal court will not review a question of federal law decided by a
state court if the decision of that state court rests on a state law ground that is both
independent of the merits of the federal claim and adequate to support that judgment.
Coleman v. Thompson, 501 U.S. 722, 731-732 (1991); Glover v. Cain, 128 F.3d 900,
902 (5th Cir. 1997). A procedural default of this type will bar federal court review of a
federal claim raised in a habeas petition when the last state court to render a judgment in
the case clearly and expressly indicated that its judgment was independent of federal law
and rested on a state procedural bar. Harris v. Reed, 489 U.S. 255, 263 (1989); Glover,
128 F.3d at 902. Federal habeas review is barred even if the state court alternatively
address the merits. See Busby v. Dretke, 359 F.3d 708, 718 (5th Cir. 2004).
The Fifth Circuit Court of Appeals has recognized Texas’s procedural rule barring
consideration of record-based claims not raised on direct appeal to be an adequate state
ground for barring federal habeas review. Dorsey v. Quarterman, 494 F.3d 527, 532
(5th Cir. 2007). The state trial court clearly and expressly indicated on collateral review
that petitioner’s claim was a record claim and not cognizable in habeas. Thus, the state
15

court’s decision rested on an “independent and adequate” state law ground and cannot be
reconsidered by this Court.
Regardless, the state trial court also denied habeas relief on the substantive merits
of petitioner’s claim. The court found that the statement was voluntary and non­
custodial, and made the following additional relevant findings of fact:
21.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that [trial
counsel] was objectively unreasonable or deficient for failing to file
a pretrial motion to suppress the applicant’s voluntary, non­
custodial statement to the police.

22.

The Court finds that [trial counsel] objected to the State’s use of the
applicant’s statement during trial, which resulted in delaying the
State from publishing the statement until re-direct after portions
were redacted.

23.

The Court finds that the applicant fails to overcome the strong
presumption that all of [trial counselj’s actions were reasonable and
based on sound trial strategy.

24.

The Court finds that the applicant fails to allege, and prove that
there is a reasonable probability that, but for [trial counselj’s alleged
deficient performance, the result of the proceeding would have been
different.

(Docket Entry No. 29-30, pp. 134-135, record citations omitted.)
No probative summary judgment evidence appears in the record supporting
petitioner’s claim that his statement was non-voluntary and custodial. Indeed, defense
counsel acknowledged on the record that the statement was non-custodial in nature.
Although petitioner submitted his own affidavit on state collateral review, he did not

16

allege that he had been forced to answer Cassidy’s questions or that he felt he was not at
liberty to terminate the interrogation and leave:
One of the main issues I wish to bring specific attention to within my
enclosed writ is the issues surrounding the argument on my GROUND
NUMBER ONE (1) argument, entitled “Illegally Obtained
Statements/Confession.” On or about the date of April 5, 2011, officers
from the sheriffs department (Deputy James Cassidy specifically) had an
interview with me concerning the death of Bridgett Frisbie (the
Complainant in my case). Before the start of the interview I asked deputy
Cassidy if I needed an attorney to assist me with the direction(s) of the
interview, to which he (Cassidy) responded by telling me: “No, you’re not
under arrest, we just need to ask you a few questions in regards to Bridgett
Frisbie.” Therefore, believing the interview was harmless, I spoke with
deputy Cassidy for about 25 minutes. However, during my trial
proceedings, deputy Cassidy was allowed to use my statements against me
by playing an audio of the interview, hence indirectly forcing me to be a
witness against myself.
Had I known that my recorded statements were going to be used against
me in a court of law, I would not have agreed to an interview with deputy
Cassidy without the aid and assistance, from a professional attorney, who
would have at least informed me of my Miranda rights.
(Docket Entry No. 29-30, p. 43, capitalization in original.) It bears noting that, although
petitioner refers to the audiotape as a “Statements/Confession,” he made no confessions
during the interview and the audiotape was never referred to as a confession during trial.
As correctly noted by respondent, petitioner submitted a new affidavit in this
federal habeas proceeding, wherein he now claims that the interview had been custodial
and involuntary.

This new, self-serving affidavit (Docket Entry No. 8) was not

presented to the state court during collateral review, and formed no part of the state court
record. When a state court adjudicates a habeas claim on the merits, federal review of

17

the claim is limited to the record that was before the state court, and evidence introduced
in federal court has no bearing on section 2254(d) review. Cullen v. Pinholster, 563 U.S.
170, 181 (2011); Rabe v. Thaler, 649 F.3d 305, 308-09 (5th Cir. 2011). Consequently,
petitioner’s new affidavit may not, and will not, be considered by this Court.
Petitioner’s Miranda-based claim is procedurally defaulted and barred from
consideration by this Court. He establishes neither cause nor prejudice as to the default.
Petitioner further fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, federal law or was an unreasonable
determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claim for denial of his Miranda warnings.
VI. INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL
The Sixth Amendment to the United States Constitution guarantees a criminal
defendant the right to the effective assistance of counsel. U.S. Const, amend. VI. A
federal habeas corpus petitioner’s claim that he was denied effective assistance of
counsel is measured by the standards set out in Strickland v. Washington, 466 U.S. 668
(1984). To assert a successful ineffectiveness claim, a petitioner must establish both
constitutionally deficient performance by counsel and actual prejudice as a result of
counsel’s deficient performance. Id. at 687. The failure to demonstrate either deficient
performance or actual prejudice is fatal to an ineffective assistance claim. Green v.
Johnson, 160 F.3d 1029, 1035 (5th Cir. 1998).

18

A counsel’s performance is deficient if it falls below an objective standard of
reasonableness.

Strickland, 466 U.S. at 688.

In determining whether counsel’s

performance was deficient, judicial scrutiny must be highly deferential, with a strong
presumption in favor of finding that trial counsel rendered adequate assistance and that
the challenged conduct was the product of a reasoned trial strategy. West v. Johnson, 92
F.3d 1385, 1400 (5th Cir. 1996). To overcome this presumption, a petitioner must
identify the acts or omissions of counsel that are alleged not to have been the result of
reasonable professional judgment. Wilkerson v. Collins, 950 F.2d 1054, 1065 (5th Cir.
1992). However, a mere error by counsel, even if professionally unreasonable, does not
warrant setting aside the judgment of a criminal proceeding if the error had no effect on
the judgment. Strickland, 466 U.S. at 691.
Actual prejudice from a deficiency is shown if there is a reasonable probability
that, but for counsel’s unprofessional error, the result of the proceeding would have been
different. Id. at 694. To determine prejudice, the question focuses on whether counsel’s
deficient performance renders the result of the trial unreliable or the proceeding
fundamentally unfair. Lockhart v. Fretwell, 506 U.S. 364, 372 (1993). In that regard,
unreliability or unfairness does not result if the ineffectiveness does not deprive the
petitioner of any substantive or procedural right to which he is entitled. Id.
Credibility findings, such as those made by the state trial court on collateral
i

review with respect to defense counsel’s affidavit testimony, are entitled to substantial
deference on federal habeas review. See Coleman v. Quarterman, 456 F.3d 537, 541
19

(5th Cir. 2006). Thus, the state court’s factual findings and credibility determinations
are presumed correct for purposes of federal habeas review unless they are rebutted with
“clear and convincing evidence.” 28 U.S.C. § 2254(e)(1); Valdez v. Cockrell, 21A F.3d
941, 947 (5th Cir. 2001); see also Mays v. Stephens, 757 F.3d 211, 214 (5th Cir. 2014)
(“The presumption [of correctness] is especially strong when the state habeas court and
the trial court are one in the same.”).
Petitioner contends that trial counsel was ineffective in the following particulars.
A.

Failure to investigate

Petitioner alleges that trial counsel was ineffective in failing to conduct a proper
pretrial investigation. Specifically, he claims that counsel jiid not sufficiently investigate
the circumstances of petitioner’s Youtube video entitled, “Me and My Berretta 9
Millimeter,” a video which depicts him firing a handgun of the same variety used in the
complainant’s murder. Petitioner further complains that counsel failed to investigate the
ballistics reports.
Trial counsel submitted an affidavit on state collateral review, in which he
testified in relevant part as follows:
My preparation for his case included a review of the offense report, crime
scene photos, crime scene video, and numerous recorded statements that
were obtained by the Harris County Sheriffs Office investigators during
the investigation of this case. Preparation also included obtaining the
identities of witnesses who could testify favorably for the Applicant.
Strategic reasons prevented me from being able to use those witnesses.
Friends and school mates were no longer interested in being associated
with the Applicant because of the allegation or they were involved and
knew information that was detrimental to the Applicant on the extraneous
20

offense. He also provided military recruiters names as potential character
witnesses, however based upon the interviews they had with the Harris
County Sheriffs Homicide Investigators, I did not believe that they would
ultimately be beneficial witnesses to his cause. I performed research on
the internet from postings allegedly made by the Applicant. The case was
also the subject of the “First 48” television series and I reviewed the aired
television footage on several occasions. I made a typewritten summary of
the offense report that was shared with the Applicant. I reviewed and
transcribed the taped interview of Alan Perez, who was granted immunity
to testify against the Applicant. I shared that statement with the Applicant
and requested that he go through that statement line by line to determine if
he knew of anything in the statement which we could use to demonstrate a
lack of credibility or any potential area for cross examination of that
witness. I worked with an investigator, Brian Benken and consulted with
him on the case which included having him take photos of Applicant’s
father’s truck which was a vehicle alleged to have been used in the murder
and also the extraneous drive-by shooting. While the Applicant was in
custody I visited him in the jail and after I filed a Writ of Habeas Corpus
and the Court set a bond, which his family made for him, I met with him
numerous times at my office as well as at his residence. I also met several
times with his mother and father regarding the case, and they both were
witnesses on the case. I also went to the scene of the homicide, the scene
of the recovery of the complainant’s cell phone, the Applicant’s residence,
all while I was accompanied by the Applicant. We also drove by the
complainant’s father’s residence so I could get an understanding of where
it was in relation to the other locations. Independent of going with the
Applicant, I also went to the homicide scene alone and the location of the
drive-by-shooting that the State used as an extraneous offense in this
prosecution.
Regarding the allegation that I did not investigate the 9mm handgun on the
Youtube video, had the Applicant ever told me that this was a gun that was
“. . . either 1) rented to the Applicant for target practice by firing range’s
personnel; and/or 2) was given to the Applicant ‘on loan’ by another
customer at the firing range for target practice,” I would have investigated
both of those claims. However, during my many meetings with the
Applicant and several discussions regarding a 9mm handgun, the alleged
murder weapon, for which there was an owner’s manual recovered from
the Applicant’s residence, the Applicant never once told me that the gun
that appeared on the Youtube video was rented at the gun range or that he
borrowed it from a patron at the gun range.
21

The conversations that I did have with the Applicant regarding a 9mm
handgun, for which he had an owner’s manual, was an attempt to find out
what happened to that gun. I was told that the gun had been sold to a man
in Jewett, Texas before they moved to Houston. I explained that it would
be beneficial for us to prove up that transaction to explain the absence of a
9mm handgun in the residence when there was an owner’s manual in the
residence. The Applicant and his father both appeared to be reluctant to
provide further details. When I continued to press regarding this issue, I
was eventually told that the man was named Jimmy Smith and that he had
passed away in 2009 from cancer. I continued to press for more
information and explained how important an issue this was in the
prosecution of the case and the only additional information ever provided
was that he was a master mason but nothing further so that I could attempt
to locate family members, as firearms are often passed down to relatives
upon a person’s passing. At no time during these discussions did the
Applicant ever raise a possible alternative that the gun in the Youtube
video was rented at the firing range or loaned to the Applicant at the firing
range.
The Applicant states that I did not properly investigate that Alan Perez
fired the fatal shot at the complainant with his own handgun. However,
when Alan Perez was interviewed by the Homicide Detectives, he turned
over a Masterpiece Arms brand 9mm Luger semi-automatic pistol, serial
number FI0025. It was submitted to the ballistics lab for testing. It was
found to be in good working order. However, when casings fired in Alan
Perez’s weapon were compared to the shell casing recovered from the
murder scene his weapon was eliminated as having possibly fired the bullet
at the scene of the homicide. Strategically, I would not have pursued the
line of questioning suggested by the Applicant since there is ballistics
evidence which would have proven that to be false.
(Docket Entry No. 29-30, pp. 120-123.)
In rejecting petitioner’s claim for ineffective assistance of counsel, the state trial
court made the following relevant findings of fact on collateral review:

22

11.

The Court finds that the applicant fails to meet his burden when he
alleges that he received ineffective assistance of trial counsel. The
applicant fails to provide sufficient supporting facts in his form
application, and the facts provided in his memorandum will not be
considered.

12.

The Court finds that [trial counsel] filed an affidavit in response to
an Order for Affidavit. The Court finds that [trial counsel’s]
affidavit is credible and the facts asserted therein to be true.

13.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that [trial
counsel] failed to conduct an adequate pretrial investigation.

14.

The Court finds that the applicant only poses a hypothetical and
never claims in his form application or memorandum that the gun
that appeared on the Youtube video was actually rented at the gun
range or borrowed from a patron at the gun range.

15.

The Court finds, based on the credible affidavit of [trial counsel],
that the applicant never told [trial counsel] that the gun that
appeared on the Youtube video was rented at the gun range or
borrowed from a patron at the gun range.

16.

The Court finds, based on the credible affidavit of [trial counsel],
that [trial counsel] conducted an adequate pretrial investigation.

(Docket Entry No. 29-30, pp. 132-133, record citations omitted.) The state trial court
also made the following relevant conclusions of law:
5.

The applicant fails to prove by a preponderance of the evidence that
trial counsel’s representation fell below an objective standard of
reasonableness and there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would
have been different.

6.

The applicant fails to prove that [trial counsel] failed to conduct an
adequate pretrial investigation.

Id., pp. 136-137, case citations omitted.
23

A petitioner who alleges a failure to investigate dn the part of his counsel must
allege with specificity what the investigation would have revealed and how it would
have altered the outcome of the trial. United States v. Bernard, 762 F.3d 467, 472 (5th
Cir. 2014); see also Day v. Quarterman, 566 F.3d 527, 540-41 (5th Cir. 2009).

Mi-

Petitioner does not claim that he told counsel the firearm was not his, nor does he show
that additional investigation would have shown it belonged to the gun range or another
patron. Petitioner further fails to present probative summary judgment evidence in the
record as to his allegations regarding the ballistics reports.
Petitioner’s conclusory allegations are insufficient to demonstrate deficient
performance or actual prejudice under Strickland. See Day, 566 F.3d at 540-41; see also
Lincecum v. Collins, 958 F.2d 1271, 1279 (5th Cir. 1992) (denying habeas relief where
petitioner offered nothing more than conclusory allegations to support his claim that
counsel was ineffective for failing to investigate and present evidence). Petitioner’s
unsupported claims warrant no relief.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable
determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claims for ineffective assistance of trial
counsel premised on failure to investigate.

24

B.

Failure to call defense witnesses

Petitioner next complains that trial counsel failed to call as defense witnesses
!.

~—

----------------------------------------------------------- 5

Kendall Suto, David Harris, Chelsea Safran, Megan Owen, and Heath Bishop, and did
-r

-s

.

------

cr

c-------- -

<r'

'

not call an expert witness to rebut the State’s fiber expert’s testimony.
In response to this claim, trial counsel submitted an affidavit on state collateral
review, in which he testified in relevant part as follows:
[My trial] [preparation also included obtaining the identities of witnesses
who could testify favorably for the Applicant. Strategic reasons prevented
me from being able to use those witnesses. Friends and school mates were
no longer interested in being associated with the Applicant because of the
allegation or they were involved and knew information that was
detrimental to the Applicant on the extraneous offense. He also provided
military recruiters names as potential character witnesses, however based
upon the interviews they had with the Harris County Sheriffs Homicide
Investigators, I did not believe that they would ultimately be beneficial
witnesses to his cause.

I did not speak to Kendall Suto, but I did listen to the audio recording of
his interview. The story he presented to the investigators was that he left
the complainant’s residence around 12:30 a.m. on the night of the incident.
He was picked up from that location by a friend. He further stated that the
complainant sent him a message later, around 2:00 a.m. - 2:30 a.m. stating
that she wanted to hang out. He called her and she said that she was out on
her dirt bike but that it had run out of gas. Kendall Suto arrived in the area
approximately 10 minutes later accompanied by the same friend who had
picked him up from the complainant’s residence earlier. He could not find
the complainant. He eventually went back to her house where he found the
dirt bike but she was not there. When he could not find her, he contacted a
mutual friend, Chelsea Safran, and told her that the complainant was
missing. Homicide investigators later verified that information with
Chelsea Safran.

25

The State subpoenaed Kendall Suto to court but did not call him as a
witness. I was surprised that he wasn’t called since the DNA evidence
linking him to the complainant was placed into evidence. I did not want to
call him as a witness for several reasons. First, Alan Perez, the State’s
only witness linking the Applicant to the homicide, stated that he and the
Applicant first encountered the complainant when she was leaving her
residence on her dirt bike and that they later turned around to go back for
her when they encountered her on the roadway because her dirt bike had
run out of gas. He stated the Applicant asked her to come help him pick up
a “cache” and she agreed but stated that she needed to be back in 15
minutes because she was meeting up with friends. Kendall Suto would
corroborate details of Alan Perez’s testimony that could not otherwise be
corroborated. Secondly, he was picked up from the location by a friend;
and had that same friend with him when he returned to meet up with the
complainant. He would basically have an alibi witness to prove he wasn’t
involved. Lastly, he told police that he called Chelsea Safran when he
realized that the complainant was missing, and that was corroborated by
Chelsea Safran.
I had a conversation with the Applicant regarding Kendall Suto and told
him that I believed that the State not calling Suto was a mistake. He would
be a “missing witness” which I felt looked more incriminating given the
circumstances of the DNA evidence. I felt there was more value to his
absence as a witness than could be gained by calling him as a witness. I
believe that my strategy is clear from the closing argument I made in this
case (as referenced in the Applicant’s application).
I believe that this went further in trying to establish some reasonable doubt
regarding the Applicant’s guilt rather than having Kendall Suto testifying
and explaining away the presence of his DNA. While I do agree that there
is potential shock value to the DNA evidence, I believe that the value of
that evidence, as it relates to attempting to create reasonable doubt as to the
guilt of the Applicant, is lessened when Kendall Suto testifies and explains
the circumstances, then corroborates that explanation when he testifies that
he was picked up by a friend from the complainant’s home and called a
friend when he realized the complainant was missing. This explanation
coupled with his corroboration of the testimony of Alan Perez [made] it
extremely risky to call him as a witness. What we needed about Kendall
Suto was the DNA evidence found on the complainant and his claim of no
romantic intentions that he made to her father. Both of those facts were

26

presented for the jury’s consideration, without any rebuttal or explanation
by Kendall Suto or the State of Texas.
(Docket Entry No. 29-30, pp. 120-125.)
In rejecting petitioner’s claim for ineffective assistance, the state trial court made
the following relevant findings of fact:
11.

The Court finds that the applicant fails to meet his burden when he
alleges that he received ineffective assistance of trial counsel. The
applicant fails to provide sufficient supporting facts in his form
application, and the facts provided in his memorandum will not be
considered.

12.

The Court finds that [trial counsel] filed an affidavit in response to
an Order for Affidavit. The Court finds that [trial counsel’s]
affidavit is credible and the facts asserted therein to be true.

17.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that [trial
counsel] was objectively unreasonable or deficient for failing to call
additional witnesses on the applicant’s behalf, including Kendall
Suto.

18.

The Court finds, based on the credible affidavit of [trial counsel],
that [trial counsel] obtained the identities of witnesses who might
testify favorably for the applicant, but that [he] did not call them to
testify for strategic reasons, including unwillingness to testify and
knowledge of detrimental information about the applicant.

19.

The Court finds, based on the credible affidavit of [trial counsel],
that [trial counsel’s decision not to call Kendall Suto as a witness
during trial was based on sound trial strategy.

(Docket Entry No. 29-30, pp. 132-134, record citations omitted.) The state trial court
also made the following relevant conclusions of law:

27

5.

The applicant fails to prove by a preponderance of the evidence that
trial counsel’s representation fell below an objective standard of
reasonableness and there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would
have been different.

9.

The applicant fails to overcome the strong presumption that trial
counsel’s actions were reasonable and based on sound trial strategy.

10.

The totality of the representation afforded the applicant was
sufficient to protect his right to reasonably effective assistance of
trial counsel.

Id., pp. 136-137, case citations omitted.
A petitioner who alleges ineffective assistance of counsel based on the failure to
call a witness, whether lay or expert, must “name the witness, demonstrate that the
witness was available to testify and would have done so, set out the content of the
witness’s proposed testimony, and show that the testimony would have been favorable to

H

the particular defense.” Day v. Quarterman, 566 F.3d 527, 538 (5th Cir. 2009) (citations
omitted).

Absent probative evidence in the record establishing these requirements,

petitioner’s claims are speculative and conclusory and warrant no relief. See Sayre v.
Anderson, 238 F.3d 631, 636 (5th Cir. 2001). Moreover, petitioner fails to identify an
available expert witness who would have rebutted the testimony of the State’s fiber
expert or show that the expert’s proposed testimony would have been favorable to the
defense.

28

/

Petitioner’s unsubstantiated allegations are insufficient to refute the state court’s
findings, which are supported by the record, and do not demonstrate that trial counsel
was deficient in the presentation of witness testimony at trial. See Day, 566 F.3d at
540-541; see also Lincecum, 958 F.2d at 1279 (denying habeas relief where petitioner
“offered nothing more than the conclusory allegations in his pleadings” to support claim
that counsel was ineffective for failing to investigate and present evidence). Petitioner
establishes neither deficient performance nor actual prejudice under Strickland.
Petitionerjails to show thatthe state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable
determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claims for ineffective assistance of trial
counsel, premised on a failure to call defense witnesses.
C.

Making improper trial comment

Petitioner also accuses trial counsel of making an improper comment during trial
that implied petitioner had shot the complainant.
The state court record shows that the State’s eyewitness Alan Perez testified that
he saw petitioner place his gun against the back of the complainant’s neck and shoot her.
(Docket Entry No. 29-12, pp. 94-95.) Perez testified he was in shock afterwards but that
he followed petitioner’s instructions to get back in the car. Id.
During cross-examination of Perez, defense counsel reviewed Perez’s actions
before, during, and after the incident, particularly as to Perez’s decision to leave the
29

scene with petitioner. At one point during the cross-examination, defense counsel asked
Perez, “After he shot Bridgett you could have run away, couldn’t you?” Petitioner
argues that this question indicated to the jury that counsel believed petitioner had shot
the complainant. However, when reviewed in its entirety, it becomes clear that defense
counsel’s cross-examination was intended to cast doubt on Perez’s actions and testimony
in context of Perez’s own version of the events:
Q.

So it’s your testimony today you had absolutely no choice in the
matter, you had to go?

A.

That’s correct.

Q.

All right. And, so, when [petitioner] said gear it up and didn’t tell
you exactly what you were supposed to wear, you still brought your
gun, you still brought -

A.

No, he asked me to bring the guns there.

Q-

And you - well, he didn’t ask you to bring the ski mask, did he?

A.

No.

Q-

All right. And he - that was something you decided to do on your
own?

A.

True.

Q-

Okay. He didn’t handcuff you there in the back of the Suburban,
did he?

A.

No.

Q-

After he shot Bridgett you could have run away, couldn ’tyou?

A.

To where? I didn’t even know where I was.

30

Q.

Anywhere. You could have gone anywhere.

A.

A guy with a car and a gun and I don’t even know where I am, I’m
supposed to run away in some random direction?

Q.

It’s dark, it’s a wooded area?

A.

I don’t even know the way to my house from there.

Q-

You said that you had - you were armed yourself. You had a gun
that contained 30 bullets, a magazine that has 32 bullets in it.

A.

9 millimeter of weak pistol rounds.

Q.

Well, that’s all he had too, according to your testimony?

A.

But also my testimony I said he had an AK-47 in his car.

Q-

Okay. Well, you didn’t have to go back to the car, did you?

A.

Where would I have gone?

Q.

Anywhere but with this guy that you say just murdered a friend of
his.

(Docket Entry No. 29-12, pp. 232-234, emphasis added.)
In rejecting petitioner’s claim, the state trial court made the following relevant
findings of fact:
20.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that [trial
counsel] implicated the applicant as the shooter during his
cross-examination of Alan Perez.

23.

The Court finds that the applicant fails to overcome the strong
presumption that all of [trial counsel]’s actions were reasonable and
based on sound trial strategy.
31

24.

The Court finds that the applicant fails to allege, and prove that
there is a reasonable probability that, but for [trial counsel]’s alleged
deficient performance, the result of the proceeding would have been
different.

(Docket Entry No. 29-30, pp. 134-135, record citations omitted.) The state trial court
also made the following relevant conclusions of law:
5.

The applicant fails to prove by a preponderance of the evidence that
trial counsel’s representation fell below an objective standard of
reasonableness and there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would
have been different.

9.

The applicant fails to overcome the strong presumption that trial
counsel’s actions were reasonable and based on sound trial strategy.

10.

The totality of the representation afforded the applicant was
sufficient to protect his right to reasonably effective assistance of
trial counsel.

Id., pp. 136-137, case citations omitted.
Petitioner’s arguments take defense counsel’s comment out of context and do
not rebut the strong presumption that counsel’s actions were reasonable and based on
sound trial strategy.

Counsel’s comment was made in reference to Perez’s own

testimony, and was not an independent statement by counsel that petitioner had shot the
complainant. Moreover, petitioner does not establish that, but for counsel’s comment,
there is a reasonable probability that the result of the trial would have been different.
Petitioner demonstrates neither deficient performance nor actual prejudice under
Strickland, and habeas relief is not warranted.
32

Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable
determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claims for ineffective assistance of trial
counsel premised on an improper trial comment.
D.

Failure to suppress pretrial statements

Petitioner asserts that trial counsel failed to suppress the admission of petitioner’s
illegally-obtained pretrial statements at trial.

In raising this claim, petitioner again

alleges that his pretrial statement was inadmissible due to lack of Miranda warnings.
In rejecting this claim, the state trial court made the following relevant findings of
fact on collateral review:
21.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that [trial
counsel] was objectively unreasonable or deficient for failing to file
a pretrial motion to suppress the applicant’s voluntary, non­
custodial statement to the police.

22.

The Court finds that [trial counsel] objected to the State’s use of the
applicant’s statement during trial, which resulted in delaying the
State from publishing the statement until re-direct after portions
were redacted.

23.

The Court finds that the applicant fails to overcome the strong
presumption that all of [trial counsel]’s actions were reasonable and
based on sound trial strategy.

24.

The Court finds that the applicant fails to allege, and prove that
there is a reasonable probability that, but for [trial counsel]’s alleged
deficient performance, the result of the proceeding would have been
different.
33

(Docket Entry No. 29-30, pp. 134-135, record citations omitted.) The trial court also
made the following relevant conclusions of law:
7.

The applicant fails to show that the evidence to which trial counsel
failed to object was inadmissible.

8.

The applicant fails to show that the trial judge would have
committed error in overruling the objections.

9.

The applicant fails to overcome the strong presumption that trial
counsel’s actions were reasonable and based on sound trial strategy.

10.

The totality of the representation afforded the applicant was
sufficient to protect his right to reasonably effective assistance of
trial counsel.

Id., pp. 135-38, case citations omitted.
The state trial court on collateral review expressly found that petitioner’s
statement was a voluntary, non-custodial statement. (Docket Entry No. 29-30, p. 131.)
■Oy.

This Court has already determined, supra, that petitioner provides no probative summary
judgment evidence in the state court record to rebut the presumed correctness of the
finding, and he fails to meet his burden of proof under AEDPA. Because the statement
was voluntary and non-custodial, petitioner establishes no legal grounds under which
counsel could have successfully suppressed the statement.

Petitioner shows neither

deficient performance nor actual prejudice under Strickland, and habeas relief is
unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable

34

determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claims for ineffective assistance of trial
counsel premised on failure to suppress the pretrial statement.
E.

Procedurallv defaulted claims

Petitioner claims that trial counsel failed to conduct adequate cross-examination
and failed to object to improper statements made by the prosecution during closing
arguments.

Respondent argues that these claims are unexhausted, procedurally

defaulted, and barred from consideration by this Court.
The exhaustion requirement found in section 2254(b) “is satisfied when the
substance of the federal claim is ‘fairly presented’ to the highest state court on direct
appeal or in state post-conviction proceedings[.]” Johnson v. Cain, 712 F.3d 227, 231
(5th Cir. 2013). To satisfy the exhaustion requirement, a prisoner must “present the state
courts with the same claim he urges upon the federal courts.” Picard v. Connor, 404
U.S. 270, 275 (1971) (citations omitted). The exhaustion requirement is not satisfied
where a petitioner presents new legal theories or factual claims in his federal habeas
petition. Neville v. Dretke, 423 F.3d 474, 478 (5th Cir. 2005).
The state court records show that petitioner did not raise this claim for ineffective
assistance in his first application for state habeas relief. Although he raised the claim in
his second application, the application was dismissed by the Texas Court of Criminal
Appeals as an abuse of the writ. (Docket Entry No. 29-44, p. 1.) It is well-settled that
dismissal for abuse of the writ constitutes a procedural default that bars federal habeas
35

review of the merits of a habeas petitioner’s claims. Nobles v. Johnson, 127 F.3d 409,
422 (5th Cir. 1997); Fearance v. Scott, 56 F.3d 633 (5th Cir. 1995). The Fifth Circuit has
noted that the Texas Court of Criminal Appeals applies its abuse of the writ rules
regularly and strictly. Fearance, 56 F.3d at 642. Thus, petitioner’s claims are
unexhausted and procedurally defaulted.
Federal habeas review of a defaulted claim is available only if a petitioner can
demonstrate: (1) “cause for the default and actual prejudice as a result of the alleged
violation of federal law,” or (2) that “failure to consider-the. claims will result in a
fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
2627 (1986). Petitioner does not establish cause for his default and actual prejudice or
demonstrate a fundamental miscarriage of justice in this case.

Consequently, these

claims for ineffective assistance of trial counsel are barred here from federal review.
Respondent is entitled to summary judgment dismissal of these two claims as
procedurally defaulted and barred.
VII. INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL
Counsel’s performance on appeal is measured by the same metrics as apply to
trial counsel. A petitioner must demonstrate a reasonable probability that, had appellate
counsel’s, performance not been deficient in the manner claimed, the appellate court
would have vacated or reversed the trial court judgment based on the alleged error.
Briseno v. Cockrell, 21A F.3d 204, 210 (5th Cir. 2001). Moreover, it is well established
that appellate counsel is not ineffective for failing to present frivolous or legally
36

meritless arguments on appeal. Williams v. Collins, 16 F.3d 626, 635 (5th Cir. 1994).
Appellate counsel “need not (and should not) raise every non-frivolous claim, but rather
may select from among them in order to maximize the likelihood of success on appeal.”
Smith v. Robbins, 528 U.S. 259, 288 (2000).
Petitioner claims that appellate counsel was ineffective in failing to challenge the
State’s jury arguments at trial.
In rejecting petitioner’s claim against appellate counsel, the state trial court made
the following relevant findings of fact on collateral review:
25.

The Court finds that the applicant fails to meet his burden when he
alleges that he received ineffective assistance of appellate counself.]
The applicant fails to provide sufficient supporting facts in his form
application, and the facts provided in his memorandum will not be
considered.

26.

The Court finds that, even if the facts provided in the applicant’s
memorandum are considered, the applicant fails to prove that
[appellate counsel] was objectively unreasonable or deficient for
failing to raise trial court error for overruling the objection to the
prosecutor’s comments on evidence outside the record.

(Docket Entry No. 29-30, p. 135, record citations omitted.) The state trial court also
made the following relevant conclusions of law:
11.

The applicant fails to prove by a preponderance of the evidence that
appellate counsel’s decision not to raise a particular point of error
was objectively unreasonable, and there is a reasonable probability
that, but for counsel’s failure to raise that particular issue, he would
have prevailed on appeal.

12.

The totality of the representation afforded the applicant was
sufficient to protect his right to reasonably effective assistance of
appellate counsel.
37

Id., p. 138, case citations omitted.
To warrant habeas relief for ineffective assistance of appellate counsel under
Strickland, petitioner must demonstrate that, but for counsel’s failure to raise the issue of
trial court error on appeal, there is a reasonable probability that he would have prevailed
on appeal. That is, petitioner must establish in the record that the proposed issue raising
trial court error would have resulted in a successful appeal. See Smith v. Robbins, 528
U.S. 259, 285 (2000).
Petitioner falls well short of this mark. His conclusory assertions of prosecutorial
and trial court error are insufficient to show that the complaints would have succeeded
on appeal. Moreover, his disagreements with the state court findings and determinations
are insufficient to meet his burden of proof under AEDPA. Petitioner shows neither
deficient performance nor actual prejudice under Strickland, and habeas relief is
unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable
determination of the facts based on the evidence in the record. Respondent is entitled to
summary judgment dismissal of petitioner’s claims for ineffective assistance of appellate
counsel.
VIII. EVIDENTIARY HEARING
A district court may hold an evidentiary hearing only when the petitioner has
shown either that a claim relies on a new, retroactive rule of constitutional law that was
38

previously unavailable, 28 U.S.C. § 2254(e)(2)(A)(i), or that the claim relies on a factual
basis that could not have been previously discovered by exercise of due diligence, 28
U.S.C. § 2254(e)(2)(A)(ii). The petitioner must also establish that the facts underlying
the claim show by clear and convincing evidence that, but for the constitutional error, no
reasonable juror would have convicted him. 28 U.S.C. § 2254(e)(2)(B). Petitioner here
has not met these requirements, and the Court has determined that no evidentiary hearing
is necessary for disposition of the claims raised in this habeas proceeding.
IX. CONCLUSION
Respondent’s motion for summary judgment (Docket Entry No. 28) is
GRANTED and this lawsuit is DISMISSED WITH PREJUDICE.

Any and all

pending motions are DENIED AS MOOT. A certificate of appealability is DENIED.
Signed at Houston, Texas, on this the •^^day'of February, 2020.

(

KEITH PTELLISON
UNITED STATES DISTRICT JUDGE

39

